No. 21-5592

In the Supreme Court of the United States
JOHN H. RAMIREZ, Petitioner,
v.
BRYAN COLLIER, et al., Respondents.
__________
ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIFTH CIRCUIT

__________
BRIEF OF RELIGIOUS-LIBERTY SCHOLARS DOUGLAS
LAYCOCK, STEVEN T. COLLIS, HELEN M. ALVARÉ,
NATHAN S. CHAPMAN, ELIZABETH A. CLARK,
ROBERT F. COCHRAN, TERESA S. COLLETT, W. COLE
DURHAM, JR., CARL H. ESBECK, RICHARD W.
GARNETT, CHRISTOPHER C. LUND, MICHAEL P.
MORELAND, AND MICHAEL STOKES PAULSEN AS
AMICI CURIAE IN SUPPORT OF PETITIONER
__________
Steven T. Collis
Douglas Laycock
Law & Religion Clinic
Counsel of Record
University of Texas
University of Virginia
School of Law
School of Law
727 E. Dean Keeton St.
214 Sprigg Lane
Austin, TX 78705
Charlottesville, VA 22903
512-475-9090
512-656-1789
Steven.collis@law.utexas. dlaycock@virginia.edu
edu

QUESTION PRESENTED
This brief addresses whether respondents substantially burden petitioner’s exercise of religion,
under the Religious Land Use and Institutionalized
Persons Act, when they allow a member of the clergy
to be present in the execution chamber but prohibit
that clergy person from offering audible prayers or
laying hands on the person being executed.

i

TABLE OF CONTENTS
Table of Authorities .................................................. iv
Interest of Amici..........................................................1
Summary of Argument ...............................................1
Argument.....................................................................6
I. The State Substantially Burdens the
Exercise of Religion if It Coerces a Person to
Change His Religious Behavior or if It
Physically Prevents Religious Behavior from
Occurring at All.. ..............................................6
A. Prison Officials Can Substantially
Burden Religious Exercise by Simply
Preventing It from Happening, Without
Ever Coercing a Prisoner’s Religious
Behavior.. ....................................................6
B. Respondents’ Definition Would Lead to
Absurd Results. ...........................................9
II. RLUIPA’s Text and History Contradict
Respondents’ Definition of Substantial
Burden. ...........................................................12
A. Respondents’ Interpretation Violates
Three of RLUIPA’s Express Provisions.. .12
1. RLUIPA Is to Be Construed
Broadly. ..........................................12
2. Prisons May Have to Incur
Expenses to Avoid Burdening
Religious Exercise. ........................13
3. RLUIPA Defines “Religious
Exercise” Broadly. ..........................14

ii

B. Respondents Misinterpret This Court’s
Cases to Reach Their Narrow
Interpretation of RLUIPA. ...................... 16
C. Respondents Ignore the Context of
RLUIPA’s Enactment. ............................. 17
III. Bowen and Lyng Do Not Require a
Different Result. ........................................... 21
IV. Allowing Other Exercises of Religion Does
Not Eliminate a Substantial Burden
Caused by Preventing the Religious
Exercise at Issue........................................... 23
V. Respondents Confuse Substantial Burden
with Compelling Interest.. .............................24
Conclusion .................................................................25
Appendix: Further Identifying the Amici .............. A-1

iii

TABLE OF AUTHORITIES
Cases
Bowen v. Roy, 476 U.S. 693 (1986) ..................... 21-22
Burwell v. Hobby Lobby Stores, Inc.,
573 U.S. 682 (2014) ........................................14, 16
City of Boerne v. Flores, 521 U.S. 507 (1997) ...........18
Colvin v. Caruso, 605 F.3d 282 (6th Cir. 2010)........11
Cutter v. Wilkinson, 544 U.S. 709 (2005) ...................8
Davila v. Gladden,
777 F.3d 1198 (11th Cir. 2015)............................11
DeMarco v. Davis, 914 F.3d 383 (5th Cir.),
cert. denied, 140 S. Ct. 250 (2019) .........................7
Dunn v. Smith, 141 S. Ct. 725 (2021) ........ 2, 8, 10, 17
Employment Division v. Smith,
494 U.S. 872 (1990) .................................. 17, 19, 24
Garner v. Kennedy, 713 F.3d 237 (5th Cir. 2013) ...13
Greenhill v. Clarke, 944 F.3d 243 (4th Cir. 2019) ...10
Haight v. Thompson,
763 F.3d 554 (6th Cir. 2014) ...............................11
Harris v. Escamilla,
736 F. App’x 618 (9th Cir. 2018) ...........................7
Holt v. Hobbs, 574 U.S. 352 (2015) ............ 4-5, 16, 23
Jones v. Carter, 915 F.3d 1147 (7th Cir. 2019) ... 9-10
Knowles v. Pfister, 829 F.3d 516 (7th Cir. 2016) .....11
Lyng v. Northwest Indian Cemetery Protective
Association, 485 U.S. 439 (1988) ............... 5, 21-22
McDaniel v. Paty, 435 U.S. 618 (1978) .....................15
iv

Montgomery v. County of Clinton,
743 F. Supp. 1253 (W.D. Mich. 1990),
aff’d mem., 940 F.2d 661 (6th Cir. 1991) ...... 18-19
Moussazadeh v. Texas Department of Criminal
Justice, 703 F.3d 781 (5th Cir. 2012) .................11
Murphy v. Collier,
139 S. Ct. 1475 (2019) ........................... 2, 8, 10, 17
Nance v. Miser, 700 F. App’x 629 (9th Cir. 2017) ...10
Perrin v. United States, 444 U.S. 37 (1979) .............12
Schlemm v. Wall, 784 F.3d 362 (7th Cir. 2015) .......11
Smith v. City of Jackson, 544 U.S. 228 (2005) .........17
United States v. Secretary, Florida Department of
Corrections, 828 F.3d 1341 (11th Cir. 2016) ......11
Washington v. Klem, 497 F.3d 272 (3d Cir. 2007) ..11
Welch v. Spaulding,
627 F. App’x 479 (6th Cir. 2015) .........................11
Williams v. Annucci,
895 F.3d 180 (2d Cir. 2018) ............................ 9-10
Wisconsin Central Ltd. v. United States,
138 S. Ct. 2067 (2018)..........................................12
Yang v. Sturner, 728 F. Supp. 845 (D.R.I. 1990) .....18
Yang v. Sturner,
750 F. Supp. 558 (D.R.I. 1990) ...................... 19-20
Constitutions, Statutes, and Rules
U.S. Const., amend. I, Free Exercise Clause .....19, 21

v

Religious Freedom Restoration Act
generally.................................... 4, 14, 17-18, 20-21
42 U.S.C. §2000bb ................................................17
Religious Land Use and Institutionalized
Persons Act
generally ................................ i, 1-5, 8-18, 20-24
42 U.S.C. §2000cc-1 ........................................25
42 U.S.C. §2000cc-3 .............................. 3, 12-13
42 U.S.C. §2000cc-5 .............................. 3, 14, 25
Other Legislative Materials
Religious Freedom Restoration Act
Congressional Record
May 11, 1993 (House) .....................................20
October 26, 1993 (Senate) ..............................20
House Report No. 103-88, Religious Freedom
Restoration Act of 1993 (May 11, 1993) ...18, 20
Religious Freedom Restoration Act of 1991:
Hearings Before the Subcommittee on
Civil and Constitutional Rights of the
House Committee on the Judiciary on
H.R. 2797 (May 13-14, 1992) ................... 18-19
The Religious Freedom Restoration Act:
Hearing Before the Senate Committee
on the Judiciary on S. 2969 (Sept. 18,
1992).......................................................... 18-19
Senate Report No. 103-111, Religious Freedom
Restoration Act of 1993 (July 27, 1993) ...18, 20

vi

Secondary Authorities
Douglas Laycock & Thomas C. Berg, Protecting
Free Exercise under Smith and after Smith,
2020-21 Cato Sup. Ct. Rev. 33 (2021) ................24
Douglas Laycock & Oliver S. Thomas,
Interpreting the Religious Freedom Restoration
Act, 73 Tex. L. Rev. 209 (1994) ............................19

vii

INTEREST OF AMICI
The individuals joining this brief are Douglas
Laycock, Steven T. Collis, Helen M. Alvaré, Nathan
S. Chapman, Elizabeth A. Clark, Robert F. Cochran,
Teresa S. Collett, W. Cole Durham, Jr., Carl H.
Esbeck, Richard W. Garnett, Christopher C. Lund,
Michael P. Moreland, and Michael Stokes Paulsen.
They are law professors who have taught and
published for many years about law and religion in
general, and the Religious Land Use and
Institutionalized Persons Act in particular. Collectively, they have published hundreds of articles and
at least thirty books in the field. Amici are further
described in the Appendix.1
SUMMARY OF ARGUMENT
I. The state substantially burdens the exercise of
religion if it coerces people to change their religious
behavior or if it physically prevents religious behavior
from occurring.
A. Respondents argue in their Brief in Opposition
that the term “substantial burden” applies only when
a prison requires inmates to engage in conduct that
seriously violates their religious beliefs. This means a
prison would never burden religious exercise even if
it makes that exercise impossible, as long as the

1 This brief was prepared and funded entirely by amici and
their counsel. No other person contributed financially or otherwise. The individual amici file in their individual capacities;
their universities take no position on this case. All parties have
consented in writing to this brief.

1

prison can show that it has not coerced a prisoner to
change his religiously motivated conduct.
But examples abound of religious exercise that
prisons can burden even when not coercing behavior.
Denying requests for prayer rooms, kosher meals, or
visits with clergy are just a few. Destroying religious
property is another. Prisons enjoy so much power that
many forms of religious exercise would be impossible
unless the prison both grants permission and
provides space, scripture, or other ritual items needed
for that exercise to occur. If RLUIPA did not apply to
these forms of exercise, it would not begin to achieve
its purpose.
Respondents also burden religious exercise in
other ways. Refusing to allow the minister to pray or
touch the prisoner does not compel conduct from the
inmate, but it does coerce the minister to abandon his
religious behavior, and thereby prevents the prisoner’s religious exercise. The prison thus burdens the
religious exercise of the prisoner by prohibiting the
religious exercise of the minister.
B. Respondents’ position would lead to absurd
results. Recent RLUIPA cases from nearly every circuit reflect this—all would need to be reversed if the
Court adopted respondents’ exclusively conductbased definition of “substantial burden.” Even this
Court’s recent decisions in Murphy v. Collier and
Dunn v. Smith would be wrong. Such an outcome
would be absurd.
II. Respondents ignore RLUIPA’s text and the
context of its enactment. The result would be to leave
the statute far short of achieving its purpose.

2

A. Respondents’ narrow interpretation violates
RLUIPA’s text in three ways.
1. It ignores RLUIPA’s textual command that the
Act “shall be construed in favor of a broad protection
of religious exercise, to the maximum extent permitted” by the statute and the Constitution. 42 U.S.C.
§2000cc-3.
2. RLUIPA gives notice to government actors that
they may be required to “incur expenses” in their “own
operations to avoid imposing a substantial burden on
religious exercise.” Id. Such language would be
unnecessary if all that prisons needed to avoid were
coercing conduct that violates prisoners’ religious
beliefs. Instead, it requires genuine accommodation:
prisons must sometimes do more than normal to
ensure that prisoners can exercise their religion.
3. RLUIPA broadly defined the “religious exercise”
it was meant to protect to include “any exercise of
religion, whether or not compelled by, or central to, a
system of religious belief.” 42 U.S.C. §2000cc-5. This
expansive definition includes religious exercise that
can be prevented without coercing a prisoner’s
personal conduct. Because respondents’ definition of
“substantial burden” would leave much “religious
exercise” unprotected, it directly contradicts the statute.
RLUIPA’s definition also negates respondents’
proposed interpretation in another way, because the
Act protects religious exercise even if it is not “compelled by, or central to, a system of religious belief.”
Respondents would protect only religious exercise
involving coerced conduct that a prisoner’s religious
beliefs “forbid.” But there are many acts not forbidden
3

or required by religion but motivated by religion and
that, if prevented, either directly and physically or
through prohibition or refusal to accommodate, would
clearly be burdened. Voluntary prayer is an obvious
example. Prayer is not mandatory in some faiths, but
if a prison refused to allow inmates to engage in
voluntary prayer, or punished them for doing so, no
one would seriously dispute that the prison was
placing a substantial burden on religious exercise.
Respondents are, in effect, trying to read all three
of these provisions out of the statutory text.
B. To reach their interpretation, respondents
misunderstand this Court’s prior precedent. In Holt v.
Hobbs, the Court concluded that a prison had placed
a substantial burden on a prisoner by forcing him to
cut his beard in violation of his religious beliefs.
Respondents interpret that decision to say that forced
conduct in violation of religion is the only way in
which a prison might substantially burden a prisoner’s religious exercise. But the opinion says no such
thing. Because the burden in that case was “easily”
shown, the Court had no need to opine on other
scenarios in which prisons might substantially burden religious exercise.
C. As this Court has recognized, many of the cases
that motivated the passage of both RLUIPA and the
Religious Freedom Restoration Act did not involve
government compelling a claimant’s religious conduct. Instead, they involved autopsies in violation of
religious beliefs. Congress clearly cared about these
cases and intended to reach them, even though they
did not involve coerced conduct.

4

III. In Lyng v. Northwest Indian Cemetery
Protective Association, this Court said that plaintiffs
had not shown a substantial burden on their religious
exercise, because the government had not coerced
them to change their religiously motivated conduct. If
this statement is taken to imply that such coercion is
the only way in which a government can substantially
burden religious exercise, then the statement is
overbroad, or at least it cannot be applied to RLUIPA,
because it would cause all the misinterpretations
discussed in Sections I and II of this brief. In Lyng,
the government’s development of its own land
disrupted religious meditation by plaintiffs who were
using that land for religious purposes. Here, the state
is directly regulating the religious exercise of
petitioner and his minister.
IV. Respondents also mistakenly assume that
because they have granted plaintiff other religious
accommodations, they are free to burden his religion
by preventing the religious exercise at issue here.
This Court squarely rejected that idea in Holt v.
Hobbs.
V. Finally, respondents provide examples of
compelling interests that might justify their burdening petitioner’s religious exercise. In doing so, they
show their own confusion. The question of whether a
prison has substantially burdened an inmate’s religious exercise is distinct from whether the prison has
a compelling reason for doing so, and the state bears
the burden of proof on compelling-interest issues.

5

ARGUMENT
I. The State Substantially Burdens the
Exercise of Religion if It Coerces a Person to
Change His Religious Behavior or if It
Physically Prevents Religious Behavior from
Occurring at All.
A. Prison Officials Can Substantially Burden Religious Exercise by Simply Preventing It from Happening, Without Ever
Coercing a Prisoner’s Religious Behavior.
In their Brief in Opposition, Opp. Cert. 15-22,
respondents argued that the term “substantial burden” is limited to only those instances in which a
prison requires an inmate to engage in conduct that
“seriously violates” his religious beliefs. Id. at 18. In
other words, a prison substantially burdens inmates’
religious exercise only if it coerces inmates into acting
in a way their religion forbids. Id. at 17-18.
Presumably, religious exercise would also be burdened if the state attempted to coerce a prisoner into
changing his religious behavior, and penalized him
for refusing to do so—but so far the state has not
clearly conceded even this.
Under the state’s interpretation, a prison would
never burden a prisoner’s religious exercise, even if it
makes all or nearly all religious behavior impossible,
so long as it can show that no prisoner has been
coerced into changing his religiously motivated
behavior or (maybe) has not been expressly penalized
for refusing to change that behavior. If the prison
physically prevents prisoners from exercising their
faith, as by refusing to allow Bibles or religious
literature into the prison, that exclusion would
6

impose no burden, because a prisoner could not show
that the exclusion coerced his religiously motivated
behavior.
Examples abound of religious exercise that would
be burdened by a government that physically limits
or prevents religious exercise, even if it is not coercing
behavior: Muslims seeking a room for prayer; Christians asking for space to hold a service; Jews asking
for Kosher meals; Muslims requesting halal meals;
prisoners asking that clergy be allowed to visit with
them—in every instance, prisons could refuse such
requests, substantially burdening inmates’ religious
exercise, and respondents’ narrow interpretation
would allow them to do it. Prisons could exclude
Bibles, Qurans, and other religious literature, and
prayer rugs, crosses, and other ritual items, even if
prisoners were offering to pay for these items with
their own money.
The same is true in cases involving the destruction
of religious property. When prison guards damage,
seize, or destroy an inmate’s religious books, there is
a tangible harm to the inmate, but under respondents’
test, prisons impose no burden on religion because
they never forced conduct.
These are not mere hypotheticals.
Prisoners have alleged such conduct by guards in
reported cases, and courts have held that these
allegations stated a claim of substantial burden. See,
e.g., DeMarco v. Davis, 914 F.3d 383, 389-90 (5th Cir.)
(prison guard allegedly seized and destroyed inmate’s
Bible and other religious books), cert. denied, 140 S.
Ct. 250 (2019); Harris v. Escamilla, 736 F. App’x 618,
620 (9th Cir. 2018) (prison guard allegedly threw
7

down inmate’s Quran and stomped on it, rendering it
unusable). Instead of forbidding the prisoner from
studying the Bible or the Quran, the guards in these
cases simply destroyed the books. Destruction of
religious materials is a more efficient way of
preventing their study; no continuing enforcement is
required. But the religious exercise of pondering holy
writ is equally prevented either way. The affected
prisoners changed their conduct from reading
scripture to something else, but not because the
prison coerced them. The guards simply prevented
the religious conduct that the prisoner had planned.
These examples illustrate a more general point
about prisons: prison authorities control everything,
and the religious exercise of prisoners is entirely
dependent on the permission or acquiescence (or if
respondents prefer, the accommodations) granted by
prison authorities. In prisons especially, “the government exerts a degree of control unparalleled in civilian society and severely disabling to private religious
exercise.” Cutter v. Wilkinson, 544 U.S. 709, 720-21
(2005). If RLUIPA did not apply to prison officials
simply preventing, blocking, or cutting off religious
exercise, it could not begin to achieve its purpose.
The execution chamber illustrates this perfectly.
There, government exercises so much control that the
condemned prisoner is strapped down and cannot
change his conduct. Yet government can substantially
burden religious exercise even so, as this Court has
recognized. See Murphy v. Collier, 139 S. Ct. 1475
(2019) (granting a stay of execution when prison
system refused inmate’s request for a spiritual
advisor in the execution chamber); Dunn v. Smith,
141 S. Ct. 725 (2021) (denying a request to vacate an
8

injunction requiring Alabama to honor a prisoner’s
request to allow his spiritual advisor into the execution chamber).
Respondents ignore how their vast power in the
chamber can burden religious exercise in other ways.
They allow the prisoner’s minister to enter the death
chamber, but he or she may do nothing once there. He
cannot pray in any way that the prisoner might hear,
and he cannot touch or lay hands on the prisoner. Of
course, these restrictions do prohibit religiously motivated behavior. Respondents’ whole argument hides
behind the fact that they prohibit the behavior of the
minister rather than that of the prisoner. Respondents ignore the fact that they prevent the religious
exercise of the prisoner by prohibiting and coercing
the conduct of his minister.
Whether these restrictions are justified is an issue
of compelling interest and least restrictive means. See
Section V. It is not an issue of substantial burden.
Respondents substantially burden petitioner’s exercise of religion by preventing that exercise from happening.
B. Respondents’ Definition Would Lead to
Absurd Results.
A review of even a few recent examples proves that
respondents’ position would lead to absurd outcomes,
with much religious exercise left without protection.
Consider Jones v. Carter, 915 F.3d 1147 (7th Cir.
2019), and Williams v. Annucci, 895 F.3d 180 (2d Cir.
2018). Jones involved an inmate’s request that the
prison accommodate his religious dietary requirements by providing him a halal meal. 915 F.3d at
1147-48. The prison refused and lost under RLUIPA.
9

Id. at 1152. Williams involved similar facts, and a
similar outcome, except the inmate was a Nazarite
Jew requesting a kosher diet. 895 F.3d at 184. Under
respondents’ understanding of “substantial burden,”
Jones and Williams would have lost because the
prison had no rule requiring them to eat something
their religions forbade. It was merely refusing to
accommodate their requests for special treatment.
They could eat what was offered, or they could go
hungry. But the prison did not regulate their religious
behavior.
In another recent example, a prison violated
RLUIPA when it refused to grant a Muslim prisoner’s
request to use scented oils as a part of group religious
ceremonies. Nance v. Miser, 700 F. App’x 629, 633
(9th Cir. 2017). The prison did not demand behavior
contradicted by religion; it simply denied a request for
an “accommodation.” It makes no difference whether
the prison forbids the prisoner to use the oils or
simply excludes them from the prison; it prevents
religious exercise either way.
In Greenhill v. Clarke, a Muslim prisoner sought
permission to participate in Friday prayer services
over television. 944 F.3d 243, 246 (4th Cir. 2019). The
prison did not prohibit him from watching the
services; it simply refused to allow him physical
access to a television. The prison lost under RLUIPA.
Id.
Even this Court’s recent decisions would be wrong
under respondents’ definition. In Murphy and Dunn,
the prisons did not force the inmates to engage in
conduct; they refused to “accommodate” requests for
spiritual advisors to be present in the execution
10

chamber. Yet the substantial burden on religious
exercise was clear in both cases.
These examples are by no means exhaustive; we
could explore many more.2 But what they show is
telling: if the Court were to adopt respondents’
conduct-based test, every single one of these cases
would have resulted in the prisoner receiving zero
protection from RLUIPA. Prisons would not even
have been required to justify their prevention of
religious practices.
Such outcomes would be absurd. They would go
very far towards negating RLUIPA by hostile
interpretation.

See, e.g., Knowles v. Pfister, 829 F.3d 516, 519 (7th Cir.
2016) (confiscating Wiccan medallion); United States v.
Secretary, Florida Department of Corrections, 828 F.3d 1341,
1343-44 (11th Cir. 2016) (refusing to provide inmate with kosher
meals); Welch v. Spaulding, 627 F. App'x 479, 480-81 (6th Cir.
2015) (giving Muslim prisoners special meals for Ramadan that
meant they got only 1,300 calories a day, when other prisoners
got 2,600 calories a day); Schlemm v. Wall, 784 F.3d 362, 366
(7th Cir. 2015) (refusing to provide venison for Navajo religious
meal); Davila v. Gladden, 777 F.3d 1198, 1203 (11th Cir. 2015)
(refusing to allow delivery of special necklace to Santeria
prisoner); Haight v. Thompson, 763 F.3d 554, 564-65 (6th Cir.
2014) (refusing to provide for or let Native American inmates
purchase traditional foods for annual powwow); Moussazadeh v.
Texas Department of Criminal Justice, 703 F.3d 781, 785, 79394 (5th Cir. 2012) (refusing to provide Jewish inmate with
kosher meals free of charge); Colvin v. Caruso, 605 F.3d 282, 291
(6th Cir. 2010) (“Colvin received nonkosher food at every meal
for the first 16 days he was at LMF and was therefore limited to
eating fruit during that time.”); Washington v. Klem, 497 F.3d
272, 274 (3d Cir. 2007) (refusing to allow more than ten religious
texts to be stored in inmate's cell).
2

11

II. RLUIPA’s Text and History Contradict
Respondents’ Definition of Substantial Burden.
A. Respondents’ Interpretation Violates
Three of RLUIPA’s Express Provisions.
Courts should interpret a statute according to its
“‘ordinary meaning … at the time Congress enacted”
it. Wisconsin Central Ltd. v. United States, 138 S. Ct.
2067, 2070 (2018) (ellipsis in original) (quoting Perrin
v. United States, 444 U.S. 37, 42 (1979)).
RLUIPA does not explicitly define “substantial
burden,” but it addresses closely related issues that
cast light on the meaning of the phrase. Respondents’
interpretation violates RLUIPA’s plain text in three
ways.
1. RLUIPA Is to Be Construed Broadly.
First, respondents ignore the congressional
command to construe RLUIPA broadly. When a term
in RLUIPA is undefined and a choice exists between
a less-protective interpretation and a more-protective
one, Congress has explicitly provided that courts
must choose the latter. Under RLUIPA’s “Rules of
construction,” in the subsection titled “Broad
construction,” Congress provided, “This chapter shall
be construed in favor of a broad protection of religious
exercise, to the maximum extent permitted by the
terms of this chapter and the Constitution.” 42 U.S.C.
§2000cc-3(g). Considering the numerous examples of
religious exercise that would go unprotected, respondents’ interpretation does not allow “maximum” free
exercise; it minimizes free exercise.

12

2. Prisons May Have to Incur Expenses to
Avoid Burdening Religious Exercise.
Second, RLUIPA puts government actors on notice
that it “may require a government to incur expenses
in its own operations to avoid imposing a substantial
burden on religious exercise.” 42 U.S.C. §2000cc-3(c).
This language would be unnecessary if prison officials
need only avoid coercing conduct—if government
never has to do anything or pay for anything to
facilitate or avoid burdening religious conduct. Giving
orders or imposing punishments that compel behavior—requiring prisoners to act in violation of their
faith—generally costs little or nothing. Refraining
from such orders and punishments generally also
costs little or nothing. See, e.g., Garner v. Kennedy,
713 F.3d 237, 245-46 (5th Cir. 2013) (finding that the
Texas Department of Criminal Justice provided zero
evidence that not compelling prisoners to shave their
beards would significantly increase prison costs).
The statutory language implies not just avoiding
coercion, and not just the physical interference with
religious conduct at issue here, but genuine
accommodation: the idea that prisons must sometimes engage in additional tasks, such as paying for a
kosher or halal meal, above and beyond their normal
operations, that will allow prisoners to exercise their
religion.
But this section of the statute does not create some
separate special rule about accommodation. Rather, it
says that prisons may have to spend money “to avoid
imposing a substantial burden”—the very term
respondents chose to contest. If a prison can impose a
substantial burden by failing to spend money, a
13

fortiori it can impose a substantial burden by
preventing the simple religious conduct at issue here.
3. RLUIPA Defines “Religious Exercise”
Broadly.
Third, RLUIPA’s definition of “religious exercise”
“includes any exercise of religion, whether or not
compelled by, or central to, a system of religious
belief.” §2000cc-5(7)(A) (emphasis added). This
definition is more expansive than what many lower
courts had interpreted RFRA to provide before
RLUIPA was enacted. See Burwell v. Hobby Lobby
Stores, Inc., 573 U.S. 682, 696 (2014) (noting this
definition and its expanded scope of protection).
The definition ensures that any and all forms of
religious exercise receive protection, including religious exercise that can be prevented without coercing
a prisoner’s personal behavior. As explained above,
respondents’ definition of “substantial burden” would
leave unprotected many forms of “religious exercise,”
directly contradicting the statute.
RLUIPA’s definition of “religious exercise” also
negates respondents’ apparent position in another
way. Religious exercise is protected whether or not
that exercise is “compelled by, or central to, a system
of religious belief.” This language does not indicate
“ambivalence,” Opp. Cert. 17; it unambiguously says
that religious exercise is included and protected
“whether or not”—protected if it is central and
compelled by religion, and equally protected if it is not
central and not compelled by religion.
Respondents contend that a substantial burden
exists only if prisoners are forced to engage in conduct
that “seriously violates” their religious beliefs, that
14

their beliefs “forbid,” or that their faith “prohibits.”
Opp. Cert. 18. These consistent word choices appear
to mean that the prison imposes a substantial burden
only if it requires conduct that the religion explicitly
prohibits.
This thinking misunderstands both religion and
the statute. Religious exercise comes in many forms,
but one distinction is especially relevant here: acts
motivated, forbidden, or required by religion. Respondents assert that RLUIPA applies only to those acts
that are forbidden. But there are many acts motivated
by religion that, if prevented, whether directly and
physically or through prohibition or refusal to
accommodate, would clearly be burdened.
Voluntary prayer is the most obvious among these.
If a prison refused to allow inmates to engage in voluntary prayer, or punished them for doing so, no one
would seriously argue that the prison was not placing
a substantial burden on religious exercise. If the
prisoners were Christian, it would not matter that
there are few mandatory times at which Christian
prayer is required.
Or consider the ministry. No one is religiously
required to become a priest, a minister, a rabbi, or an
imam. Only a tiny percentage of believers ever do so.
But those who do are undoubtedly exercising religion.
See McDaniel v. Paty, 435 U.S. 618, 626-29 (1978)
(protecting the right to become a minister).
Respondents’ interpretation of “substantial
burden” is, in effect, reading all three of these clauses
out of the statute. Given the vast range of religious
exercise that they could entirely prevent without
regulating prisoner behavior, they are asking this
15

Court to nullify most of RLUIPA’s potential applications. They would leave the statute far short of
achieving its purpose or implementing its text.
B. Respondents Misinterpret This Court’s
Cases to Reach Their Narrow Interpretation of RLUIPA.
Respondents reach their narrow interpretation of
“substantial burden” by misunderstanding this
Court’s prior opinions. They rely on language that
first appeared in Hobby Lobby, and which the Court
later quoted in Holt v. Hobbs, 574 U.S. 352 (2015). In
both cases, the Court concluded that government had
demanded that the religious claimants “engage in
conduct that seriously violates [their] religious
beliefs.” Id. at 361 (quoting Hobby Lobby, 573 U.S. at
720).
In each case, the Court was simply describing the
facts of the case before it—describing how particular
plaintiffs had shown a substantial burden. In neither
case did the Court hold, or even suggest in dicta, that
compelled conduct is the only means by which
government could burden someone’s religious exercise. The Court commented that petitioner in Holt had
“easily” shown substantial burden, implying that
there are other ways, including more difficult and
perhaps less obvious ways, to show substantial
burden. 574 U.S. at 361.
The Court had no reason to address in either case
whether physically preventing a prisoner’s religious
exercise, or (as the state would prefer it) failing to
accommodate a prisoner’s religious exercise, can
result in a substantial burden. If it had, the plain
statutory text would have provided the answer.
16

Respondents also misinterpret Murphy and Dunn.
In both, the Court implicitly rejected respondents’
position about clergy in the death chamber. Neither
case involved regulation of the prisoner’s religious
behavior. The condemned prisoner was strapped
tightly to a gurney and unable to engage in any
behavior beyond thought and speech. Allowing the
presence of a minister at all is an “accommodation” in
the state’s characterization; doing so allows religious
exercise that the state could physically prevent by
excluding the minister. But in both cases, the
existence of a substantial burden was clear.
C. Respondents Ignore
RLUIPA’s Enactment.

the

Context

of

Understanding the context of RLUIPA’s enactment is crucial to understanding the statute’s text
and how religious exercise can be burdened even if the
plaintiff is not forced to engage in conduct that
violates his or her religion. Congress enacted both
RFRA and RLUIPA in response to Employment
Division v. Smith, 494 U.S. 872 (1990), which held
that neutral and generally applicable laws that burden religious exercise do not trigger strict scrutiny.
In response, RFRA explicitly acknowledged that
“laws ‘neutral’ toward religion may burden religious
exercise as surely as laws intended to interfere with
religious exercise.” 42 U.S.C. §2000bb(a)(2). RLUIPA
is premised on that same view. The two statutes are
in pari materia, and much of their key operative
language is substantially identical, including the sentence about “substantial burden.” See Smith v. City of
Jackson, 544 U.S. 228, 233 (2005) ("[W]hen Congress
uses the same language in two statutes having
similar purposes, particularly when one is enacted
17

shortly after the other, it is appropriate to presume
that Congress intended that text to have the same
meaning in both statutes.").
As this Court has recognized, many of the cases
that motivated the passage of RFRA, and then of
RLUIPA, did not involve government compelling a
claimant’s religious conduct. “Much of the discussion”
about the need for RFRA “centered upon anecdotal
evidence of autopsies performed on Jewish individuals and Hmong immigrants in violation of their religious beliefs.” City of Boerne v. Flores, 521 U.S. 507,
530-31 (1997). The Court cited for this proposition
four witness statements in the House, three in the
Senate, and both committee reports.3 Id. at 531. So
many witnesses invoked this example because it was
accurately perceived to be powerfully effective.
In the case Congress discussed most, a medical
examiner performed an autopsy on a young Hmong
man without notice to his family. The family sued.
Yang v. Sturner, 728 F. Supp. 845 (D.R.I. 1990).
Although government forced no one to engage in conduct that violated their religion, the court found that
the Hmong family’s religious exercise had been bur3 Religious Freedom Restoration Act of 1991: Hearings Before
the Subcommittee on Civil and Constitutional Rights of the
House Committee on the Judiciary on H.R. 2797, at 81, 122, 158
(May 13-14, 1992) (hereinafter House Hearings) (three witness
statements citing Montgomery v. County of Clinton, 743 F. Supp.
1253 (W.D. Mich. 1990)); The Religious Freedom Restoration Act,
Hearing Before the Senate Committee on the Judiciary on S.
2969, at 9, 50, 159, 193 (Sept. 18, 1992) (hereinafter Senate
Hearing) (four witness statements citing Montgomery); Senate
Report No. 103-111, Religious Freedom Restoration Act of 1993,
at 8 (July 27, 1993); House Report No. 103-88, Religious Freedom
Restoration Act of 1993, at 5-6 & n.14 (May 11, 1993).

18

dened in violation of the Free Exercise Clause. No
member of Congress suggested otherwise.
Congress was also told that Smith had barred
relief for a Jewish parent after an unnecessary autopsy performed on her son. Montgomery v. County of
Clinton, 743 F. Supp. 1253 (W.D. Mich. 1990), aff’d
mem., 940 F.2d 661 (6th Cir. 1991). He died in an
automobile accident, so the cause of death was obvious. Despite Smith’s effect of causing the parents to
lose their case, Congress recognized that the family’s
religious exercise had been substantially burdened—
even though no one had been forced to engage in
religion-violating behavior.
These cases, and Yang in particular, became prominent for two reasons. First, William Yang, the decedent’s uncle, gave poignant testimony about the family’s distress and their belief that they were cursed for
allowing mutilation of the body. Senate Hearing 5-6;
House Hearings 107-08 (both supra note 3). They were
not compelled to act, but “it was plain to anyone who
attended the hearings in either house that the committee members were moved by these cases and
meant to subject them to the Act.” Douglas Laycock &
Oliver S. Thomas, Interpreting the Religious Freedom
Restoration Act, 73 Tex. L. Rev. 209, 229 (1994).
And second, the district court reversed its original
judgment in favor of the Yangs in light of Employment
Division v. Smith, making Yang the clearest and least
debatable example of Smith’s consequences. Yang v.
Sturner, 750 F. Supp. 558 (D.R.I. 1990). The district
judge expressed “the deepest sympathy for the
Yangs,” “moved by their tearful outburst” and “the
depth of the Yangs’ grief.” Id. at 558.
19

The House committee report cited Yang as the
first of four cases showing that “facially neutral and
generally applicable laws have and will, unless the
Religious Freedom Restoration Act is passed, continue to burden religion.” House Report 5-6 & n.14
(supra note 3). See also Senate Report 8 & n.13 (supra
note 3) (citing Yang as first example of how, “[b]y
lowering the level of constitutional protection for
religious practices, the [Smith] decision has created a
climate in which the free exercise of religion is
jeopardized”). Senator Hatch, the lead Republican
sponsor, told the Senate that RFRA “is important
because it restores protection to individuals like the
Yangs and others who have suffered needlessly.” 139
Cong. Rec. 26181 (Oct. 26, 1993). Representative
Edwards, the subcommittee chair and an original cosponsor, listed autopsies as the first example in
explaining to the House why RFRA “is a very, very
important bill.” 139 Cong. Rec. 9681 (May 11, 1993).
The autopsy cases are important here. They show
that government can burden religion within the
meaning of RFRA and RLUIPA simply by preventing
it or refusing to accommodate it, especially when
government enjoys excessive control over the circumstances. Government simply seized control of the body
and performed the autopsy, making adherence to the
religious beliefs of the decedent and his family
impossible. Stated the other way, these cases show
the congressional understanding that government
can and does burden religion even when it does not
compel someone to engage in conduct that violates
their beliefs.

20

III. Bowen and Lyng Do Not Require a Different
Result.
In Bowen v. Roy and Lyng v. Northwest Indian
Cemetery Protective Association, the Court said that
plaintiffs there had failed to prove a substantial
burden on their religious exercise, in part because the
government had not coerced their religious behavior.
See 476 U.S. 693 (1986), and 485 U.S. 439 (1988). All
of the points in Sections I and II of this brief—the
decided RLUIPA cases, the many examples of prison
officials preventing religious exercise without coercing behavior, the statutory text, and the legislative
history—show that any implication that such coercion
is the only way to substantially burden religious
exercise was overbroad, or at least that it is inapplicable to RLUIPA cases. Bowen and Lyng each presented
claims under the Free Exercise Clause, not under
RFRA or RLUIPA, which had not yet been enacted.
The facts of Bowen and Lyng were very different
from this case and from many other prison cases. In
Bowen, the Court held that government’s use of a
social security number in its own record keeping did
not violate the Free Exercise Clause, despite
plaintiffs’ claim that this use would sap their
daughter’s spiritual power. 476 U.S. at 695-96. In
Lyng, the Court held that the government could build
a road on its own land, even though the resulting
noise would disrupt religious meditation by Native
Americans who used the land for religious purposes.
485 U.S. at 441-43. The Court said that “[i]n neither
case, however, would the affected individuals be
coerced by the Government’s action into violating
their religious beliefs; nor would either government
action penalize religious activity by denying any
21

person an equal share of the rights, benefits, and
privileges enjoyed by other citizens.” Lyng, 485 U.S.
at 449.
This language cannot be read to mean that
coercing or penalizing religious behavior is the only
means by which government can burden the exercise
of religion. That would lead to all the absurd results
discussed above. And it certainly cannot have such an
exclusive meaning if applied to RLUIPA, because it
would give prison officials carte blanche to prevent
religious exercise by simply refusing to admit into the
prison any religious literature, ritual items, kosher or
halal food, or any other material necessary or helpful
to the exercise of religion.
The Court emphasized in both cases that the
government need not “conduct its own internal affairs
in ways that comport with the religious beliefs of
particular citizens.” Id. at 448 (quoting Bowen, 476
U.S. at 699). But in this case, government is not
merely managing its own affairs, its own record
keeping, or its own real estate. In this case, the state
is regulating. It is directly restricting petitioner’s religious exercise by regulating what his minister can do
for petitioner in the moments leading up to death.
Lyng also said that “[t]he crucial word in the
constitutional text is ‘prohibit.’” Id. at 451. Respondents here prohibit the minister from audibly praying
or laying on hands, and by that rule, they prevent
petitioner’s free exercise. Bowen and Lyng were about
the “incidental effects” of government action taken for
reasons wholly unrelated to religion, let alone to any
particular claimant’s religion. 485 U.S. at 450. In
Lyng, the government’s reasons for the planned road
22

were wholly unrelated to religion and unrelated to the
Native American plaintiffs in any other way. This
case is very different. The state’s rule was announced
specifically in response to petitioner’s religious
request, and for the specific purpose of rejecting that
request—to prohibit the minister’s religious exercise
and thereby prevent petitioner’s religious exercise.
IV. Allowing Other Exercises of Religion Does
Not Eliminate a Substantial Burden Caused
by Preventing the Religious Exercise at
Issue.
Respondents make the same mistake that this
Court rejected in Holt v. Hobbs: assuming that
because they have allowed petitioner some religious
exercise by permitting him to meet with his minister
on the day of his execution, they can freely forbid or
prevent other religious exercise.
In Holt, this Court squarely rejected such
arguments. It noted that “the availability of alternative means of practicing religion is a relevant consideration” in some cases under the highly deferential
constitutional standard applied to prisons, but it
concluded that “RLUIPA provides greater protection.
RLUIPA's ‘substantial burden’ inquiry asks whether
the government has substantially burdened religious
exercise … not whether the RLUIPA claimant is able
to engage in other forms of religious exercise.” 574
U.S. at 361-62.
This is because religious practices are rarely
fungible. “From the standpoint of the constitutional
interest, telling the free exercise claimant to practice
his other beliefs instead of this one would be like
23

telling the free-speech claimant to communicate other
messages instead of this one.” Douglas Laycock &
Thomas C. Berg, Protecting Free Exercise under
Smith and after Smith, 2020-21 Cato Sup. Ct. Rev. 33,
48 (2021).
V. Respondents Confuse Substantial Burden
with Compelling Interest.
Prisons need not “accede” to a prisoner’s “every
religious demand.” Opp. Cert. at 18. RLUIPA does not
say otherwise. But when a prisoner’s exercise of
religion is facing a substantial burden, the appropriate question is whether the prison can prove that it
has a compelling interest and is using the narrowest
means possible for achieving that interest.
Respondents confuse these two distinct principles.
When trying to argue that petitioner faces no substantial burden, they give the example of an inmate
asking to travel to an offsite location on the day of his
execution. Such a request would interfere with the
execution and pose a risk of escape attempts, and the
prison could plausibly argue that it has a compelling
interest in not allowing that interference; even so, the
prisoner’s religious exercise would be burdened.
Similarly, if petitioner were asking that his entire
congregation be allowed into the chamber to lay
hands on his head, the prison could plausibly burden
that form of religious exercise as well, showing that
the sheer number of people to control and the
resultant crowding would interfere with the execution.
But in neither of these extreme examples, so different from the case before the Court, does the ques24

tion of “substantial burden” come into play, just as it
does not in this case. Keeping these separate issues
distinct is important, because it matters to burdens of
proof. Respondents cannot escape their burden of
proof by moving alleged justifications for the burden
on religion from the issues of compelling interest and
least restrictive means, where they bear the burden,
to substantial burden on religious exercise, where
plaintiffs bear the burden. See 42 U.S.C. §2000cc-1(a)
(requiring government to “demonstrate[]” compelling
interest and least restrictive means); id. §2000cc-5(2)
(defining “demonstrates” as “meets the burdens of
going forward with the evidence and of persuasion”).
CONCLUSION
The judgment should be reversed and remanded
with clear guidance that a failure to accommodate a
prisoner’s request causes a substantial burden on
religious exercise if it prevents that religious exercise
from occurring.
Respectfully submitted,
Steven T. Collis
Law & Religion Clinic
University of Texas
School of Law
727 E. Dean Keeton St.
Austin, TX 78705
512-475-9090
Steven.collis@law.utexas.
edu

Douglas Laycock
Counsel of Record
University of Virginia
School of Law
214 Sprigg Lane
Charlottesville, VA 22903
512-656-1789
dlaycock@virginia.edu

September 27, 2021

25

APPENDIX

APPENDIX
Further Identifying the Amici1
Helen M. Alvaré is the Robert A. Levy Endowed
Chair in Law and Liberty at the Antonin Scalia Law
School at George Mason University.
Elizabeth A. Clark is Associate Director of the
International Center for Law and Religion Studies at
the J. Reuben Clark Law School at Brigham Young
University.
Nathan S. Chapman is the Pope F. Brock
Associate Professor of Professional Responsibility at
the University of Georgia School of Law.
Robert F. Cochran, Jr., is the Louis D. Brandeis
Professor of Law Emeritus and the founder of the
Herbert and Elinor Nootbarr Institute on Law, Religion, and Ethics at Pepperdine University.
Teresa S. Collett is Professor of Law at the
University of St. Thomas (Minnesota).
Steven T. Collis is Clinical Professor of Law at the
University of Texas, where he is the founding faculty
director of the Bech-Loughlin First Amendment Center and its related Law & Religion Clinic.
W. Cole Durham, Jr. is the Susa Young Gates University Professor of Law at the J. Reuben Clark Law
School at Brigham Young University. He is the founding director of the International Center for Law and
Religion Studies.

Institutions are listed for identification purposes only. All
signatories are participating in their individual capacity, not as
representatives of their institutions.
1

A-1

Carl H. Esbeck is the R.B. Price Professor Emeritus of Law and the Isabelle Wade & Paul C. Lyda
Professor Emeritus of Law at the University of Missouri. Professor Esbeck previously served as Senior
Counsel to the Deputy Attorney General at the U.S.
Department of Justice.
Richard W. Garnett is the Paul J. Schierl/Fort
Howard Corporation Professor of Law at the University of Notre Dame. He is the founding director of
Notre Dame’s new Program on Church, State, and
Society.
Douglas Laycock is the Robert E. Scott Distinguished Professor of Law and Professor of Religious
Studies at the University of Virginia, and the Alice
McKean Young Regents Chair in Law Emeritus at the
University of Texas. His many writings on religious
liberty have been republished in a five-volume collection.
Christopher C. Lund is Professor of Law at Wayne
State University.
Michael P. Moreland is the University Professor of
Law and Religion at Villanova University’s Charles
Widger School of Law and Director of the Eleanor H.
McCullen Center for Law, Religion, and Public Policy.
Michael Stokes Paulsen is Distinguished University Chair and Professor of Law at the University of
St. Thomas (Minnesota).

A-2

